GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

December 16, 2019
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 19-386, Monroe County Commission v. A.A. Nettles, Sr. Properties Ltd., et al.
Dear Mr. Harris,
I am writing to inform you that Petitioner in the above-captioned case hereby waives the
14-day waiting period for distribution of the case materials. Please distribute the case materials
on December 23rd so that the Court may consider the petition at its conference on January 10,
2020. Petitioner will submit a reply brief before December 23rd.
Thank you in advance for your assistance with this matter.
Very truly yours,

Sarah E. Harrington
cc: Respondents’ counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

